MEMORANDUM FOR:              EMILY STOVER DeROCCO
                             Assistant Secretary for
                              Employment and Training



FROM:                        ELLIOT P. LEWIS
                             Assistant Inspector General
                              for Audit

SUBJECT:                     Evaluation of Workforce Investment Act
                             Obligations and Expenditures
                             Management Letter No. 04-03-022-03-390

To determine the status of Workforce Investment Act (WIA) obligations and
expenditures as of December 31, 2001, the Office of Inspector General (OIG) engaged
the public accounting firms of R. Navarro & Associates and Harper, Rains, Stokes &
Knight to conduct agreed-upon procedures (AUP) in 10 selected states. (See Attachment
for a summary of the results of the AUP engagements.)

We have evaluated the results of the 10 AUP engagements. The results of our evaluation
are presented below.

BACKGROUND

Some states and congressional delegations raised concerns with respect to allotments
under WIA Title I. Specifically, the Administration reduced all states’ allotments for
PY 2001 based on relatively low rates of reported expenditures of WIA Title I funds
during PY 2000 – the first year of WIA’s full implementation. The Administration
reasoned that reduced allotments were justified because of the significant amount of
unexpended PY 2000 funds being carried over for expenditure in PY 2001. However,
some states countered that substantial amounts of unexpended PY 2000 funding were
obligated (legally committed), and therefore not available in PY 2001.

In November 2002, the General Accounting Office (GAO) issued a report, “States’
Spending is on Track, but Better Guidance Would Improve Financial Reporting.” GAO
argued that ETA’s reliance on expenditure rates understated program cost. They
concluded that “obligations” were a better representation of WIA resource consumption.
OBJECTIVE, SCOPE AND METHODOLOGY

The objective of our evaluation was to determine which measurement -- obligations or
expenditures -- provided a more reliable rate of WIA resource consumption.

Our evaluation was based on the results of AUPs conducted in California, Louisiana,
Maryland, Michigan, North Carolina, Ohio, Pennsylvania, Puerto Rico, South Carolina,
and Tennessee.

In general, the AUPs summarized the states’ financial activity (obligations and
expenditures) for the period July 1, 2000 through December 31, 2001, to determine if the
amounts reported to ETA agreed with the supporting accounting records, and to measure
the extent to which the states and local boards had obligated and expended WIA funds.

The 10 states were judgmentally selected. Agreed Upon Procedures were performed in
each state. Individual AUP reports were prepared for each state, the results of which are
summarized in the Attachment.

RESULTS

Our evaluation of the information provided in the 10 AUP reports revealed the following:

   •   Based on average monthly expenditures during the preceding 18 months, the 10
       states reported unexpended balances as of December 31, 2001, that would permit
       them to operate for about 19 months even without the influx of new allotments.
       However, the states reported unobligated balances that would only permit about 5
       more months of operation.

   •   Reported obligations were generally overstated. Most states were reporting all
       local board funding as obligated, even though the boards had not entered into
       legal commitments for WIA services. States interpreted WIA financial reporting
       requirements differently, resulting in inconsistent reporting of amounts obligated
       for local level activities.

       Seven states reported substantially all funds obligated as of December 31, 2001.
       These states reported actual obligations for state level activities, but reported all
       funds passed to local boards as obligated even though they had not been legally
       committed for WIA services.

       The remaining three states reported substantial unobligated balances. Two of the
       three reported actual obligations for both state and local activities. The remaining
       state reported amounts expended as obligations.

   •   Notwithstanding how they reported obligations to DOL, five states did not require
       local boards to report obligations or unliquidated obligations to the state.

   •   Reported expenditures were generally understated. WIA regulations require
       reporting of accrued expenditures. However, in six states, some local boards were
       reporting expenditures on a cash basis. The states compiled local board

                                              2
       expenditures for inclusion on Financial Status Reports (FSRs). Therefore, 60
       percent of the states reviewed were not reporting expenditures on a full accrual
       basis.

   •   All 10 states recorded expenditures against appropriated funds on a first-in, first-
       out (FIFO) basis, meaning that expenditures were charged to the earliest available
       appropriation, instead of the appropriation applicable to the period in which the
       expenditure was incurred. FIFO accounting does not permit an accurate
       evaluation of PY cost. Also, it affords states the opportunity to consume
       unneeded resources that would otherwise be returned to DOL.

CONCLUSION

Based on our evaluation results, we make the following observations that we believe
should be considered in the upcoming debate over reauthorization of WIA, which expires
September 30, 2003:

   1. Obligations provide a better gauge of states’ WIA funding requirements than
      expenditure rates, if obligations accurately reflect legally committed funds and
      are consistently reported.

   2. FIFO reporting of expenditures at state and local levels, while permitted, does not
      allow proper matching of a particular period’s sources and application of funds.

Finally, we believe working with the states to improve the accuracy, consistency and
completeness with which expenditure and obligation data are reported would improve
ETA’s ability to measure and manage WIA resource consumption. ETA issued revised
instructions in November 2002 to clarify WIA financial reporting requirements; however,
additional guidance and technical assistance are needed to ensure WIA funds are properly
accounted for and reported, particularly at the local level.

Our evaluation is provided for your information and consideration. While no response is
required, we welcome your views on this subject.

If you have any questions, please call me at (202) 693-5170, or Robert Wallace, Regional
Inspector General for Audit in Atlanta, at (404) 562-2341.

Attachment




                                            3
                                                                                 ATTACHMENT

                         EVALUATION OF WORKFORCE INVESTMENT ACT
                              OBLIGATIONS AND EXPENDITURES
                                   AS OF DECEMBER 31, 2001


CATEGORY                                          STATE VISITED                                            SUMMARY
                  CA        LA      MD       MI      NC       OH        PA      PR      SC       TN

Awarded*        $1,308     $143     $98    $165     $123     $259      $283    $558     $85     $110        $3,132


Obligated*       $991       $68     $97    $160     $117    $262**     $271    $306     $77     $102        $2,451


Unobligated*     $317       $75     $2       $5      $6       -$3      $12     $253      $8      $8           $683

Percentage
                  24%      52%      2%      3%       5%       -1%       4%     45%      9%       7%          15%
Unobligated
Months
                  5.8      20.0     0.3     0.5      0.9      -0.2       .8     14.9    1.9      1.4          4.6
Unobligated

Expended*        $680       $63     $54    $107     $69       $93      $169    $205     $38     $53         $1,531


Unspent*         $628       $80     $44     $58     $54      $166      $114    $353     $47     $57         $1,601

Percentage
                  48%      56%     45%      35%     44%       64%      40%     63%      55%     52%          50%
Unspent
Months
                  16.6     22.7    14.8     9.7     13.9      31.9     12.2     30.9    22.5    19.6         19.5
Unspent
All Local
                                                                                                             7 Yes
Funds              No       No      Yes     Yes     Yes       Yes      Yes      No      Yes     Yes
                                                                                                             3 No
Obligated

Local Boards
                                                                                                             5 Yes
Reported          Yes       No      No      Yes      No       No       Yes      Yes     Yes      No
                                                                                                             5 No
Obligations

Local Boards
                                                                                                             6 Yes
Reported on       Yes      Yes      No      No      Yes       Yes       No      Yes      No     Yes
                                                                                                             4 No
Cash Basis***
Expenditures
Charged on a      Yes       Yes     Yes     Yes     Yes       Yes      Yes      Yes     Yes     Yes         10 Yes
FIFO Basis


       * Dollar amounts are in millions and may not total due to rounding.
       ** Ohio had not reduced obligated funds to reflect PY 2001 rescission by DOL
       *** Recorded as “Yes” if at least one of the local boards we visited reported expenditures to the
          State on a cash basis.
